JUNE 2, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




         NASA’S MANAGEMENT OF THE NPOESS
                PREPARATORY PROJECT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-018 (ASSIGNMENT NO. A-10-012-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ATMS         Advanced Technology Microwave Sounder
CERES        Clouds and the Earth’s Radiant Energy System
CrIS         Crosstrack Infrared Sounder
DMSP         Defense Meteorological Satellite Program
DOD          Department of Defense
DWSS         Defense Weather Satellite System
FY           Fiscal Year
GAO          Government Accountability Office
GOES         Geostationary Operational Environmental Satellites
GRAIL        Gravity Recovery and Interior Laboratory
IPO          Integrated Program Office
JPSS         Joint Polar Satellite System
MMS          Magnetospheric Multiscale
NOAA         National Oceanic and Atmospheric Administration
NPOESS       National Polar-orbiting Operational Environmental Satellite System
NPP          NPOESS Preparatory Project
NPR          NASA Procedural Requirements
OMPS         Ozone Mapping and Profiler Suite
POES         Polar-orbiting Operational Environmental Satellite
PPBE         Planning, Programming, Budgeting, and Execution
VIIRS        Visible Infrared Imaging Radiometer Suite


                                                                    REPORT NO. IG-11-018
JUNE 2, 2011




                                                                                             OVERVIEW

                       NASA’S MANAGEMENT OF THE NPOESS
                              PREPARATORY PROJECT

                                                                                               The Issue

  The National Polar-orbiting Operational Environmental Satellite System (NPOESS)
  Program, considered a national priority essential to meeting civilian and military weather
  forecasting, storm tracking, and climate monitoring requirements, was created in May
  1994. The NPOESS Preparatory Project (NPP) was conceived as a risk reduction
  mission, providing an opportunity to demonstrate and validate new instruments;
  processing algorithms; and command, control, communications, and ground processing
  capabilities prior to launching the first of six planned NPOESS satellites. The NPP
  satellite was designed to carry the same instruments as NPOESS and to measure such
  properties as atmospheric and sea surface temperatures, humidity, land and ocean
  biological productivity, and cloud properties.

  To manage the NPOESS Program a tri-agency Integrated Program Office (IPO) was
  formed and staffed by the Department of Defense (DOD), the Department of Commerce’s
  National Oceanic and Atmospheric Administration (NOAA), and NASA. In 1999,
  NASA entered into an Initial Implementation Agreement with the IPO to jointly develop
  and manage NPP for the benefit of all involved organizations. The Final Implementation
  Agreement, executed in September 2004, stipulates that the individual agencies are
  responsible for the funding, management, and development of specific portions of NPP
  on a “no exchange of funds basis.” 1 Because of this stipulation, each partner is
  responsible for all costs incurred for the mission segments under its area of responsibility.

  Originally, the NPP satellite was to launch in 2006, providing NASA a platform for
  continuing its collection of global climatology data and creating a bridge between the
  NASA Earth Observing System’s Terra and Aqua satellites – launched in 1999 and 2002,
  respectively, and designed with 6-year life spans – and the NPOESS satellites. 2 NPP’s
  launch has now slipped to October 2011.


  1
      The Initial Implementation Agreement identified partner responsibilities for the formulation phase of the
      effort. The Final Implementation Agreement addressed the implementation phase. A copy of the Final
      Implementation Agreement, effective September 17, 2004, is in Appendix B.
  2
      On December 18, 1999, NASA launched Terra to begin collecting a new 18-year global data set on which
      to base future scientific investigations about Earth. On May 4, 2002, NASA launched Aqua to measure
      variables of the Earth’s water cycle involving water’s liquid, solid, and vapor forms. Terra and Aqua
      continue to operate, exceeding their designed 6-year operational life spans.



REPORT NO. IG-11-018
                                                                                                          OVERVIEW



     On February 1, 2010, NPOESS cost overruns and schedule delays led to a White House
     decision to dissolve and restructure the overarching Program. To preserve the critical
     operational weather and climate satellite system, NPOESS was divided into the NASA-
     NOAA Joint Polar Satellite System (JPSS) and the Defense Weather Satellite System
     (DWSS). Following the restructuring of the NPOESS Program, the value of NPP to
     assure continuity of essential weather and climate measurements significantly increased
     in importance.

     We initiated this audit to determine how well NASA managed NPP to accomplish its
     technological objectives, meet its schedule milestones, and control costs. We also
     evaluated whether NPP management identified, reported, and mitigated risks. Details of
     the audit scope and methodology are in Appendix A.

     Results

     Although NASA met its schedule and technical requirements for producing the NPP
     spacecraft and the instruments for which it was responsible, the other IPO partners were
     unable to deliver their three scientific instruments to NASA in a timely manner. As a
     result, NPP has experienced a 5-year launch delay and a 54 percent increase in costs.
     Originally planned for an October 2006 launch with a life-cycle cost of $560 million,
     NPP is currently scheduled to launch in October 2011, and the life-cycle cost estimate has
     grown to $864 million. 3 Due to these delays, NASA incurred an additional $304 million
     in associated costs – money that could have been used for other NASA projects had NPP
     launched in 2006. Moreover, if the NPP launch is delayed to February 2012 – the next
     available launch window due to launch facility scheduling – the Project will sustain
     additional launch services and support costs (for example, maintaining personnel) of
     about $35 million. Finally, because of technical issues encountered during development
     and testing, NPP management is concerned that the instruments provided by the IPO may
     not continue to operate throughout the planned 5-year mission.

     Despite Effective Project Management, NPP Costs Continue to Grow. We found that
     NASA had implemented sound project management principles in carrying out its NPP
     responsibilities. Specifically, NASA management delivered the spacecraft and the
     instruments for which it had responsibility on schedule and within established
     milestones. 4 NASA’s responsibilities for NPP include providing the spacecraft and the
     Advanced Technology Microwave Sounder (ATMS), integrating all instruments onto the
     spacecraft, and providing and managing launch services. 5 Responsibilities assigned to
     3
         The life-cycle costs and other costs cited throughout the report are costs to NASA and do not include
         DOD or NOAA costs.
     4
         This report uses the terms spacecraft and satellite interchangeably to refer to NPP.
     5
         Following the Nunn-McCurdy Certification of NPOESS in June 2006, NASA and NOAA recommended
         in a joint whitepaper that the Clouds and the Earth’s Radiant Energy System (CERES) instrument that
         NASA built for the first NPOESS satellite be moved onto NPP to provide continuity of coverage with
         identical instruments on Terra and Aqua.


ii                                                                                              REPORT NO. IG-11-018
OVERVIEW



  the IPO included providing the Crosstrack Infrared Sounder (CrIS), the Visible Infrared
  Imaging Radiometer Suite (VIIRS), and the Ozone Mapping and Profiler Suite (OMPS).

  Due to the late delivery of instruments from the IPO, NASA project managers were
  confronted with unanticipated delays that caused the Agency to expend approximately
  $304 million that could have been used for other projects had the instruments been
  delivered on time and the 2006 launch date met. Moreover, the late deliveries of IPO
  instruments have compressed final system integration and testing activities and could
  delay the October 2011 launch, further increasing the launch services and support costs
  NASA is responsible for funding. In addition, NPP is the last of three remaining
  missions scheduled to launch on a Delta II launch vehicle. 6 These three missions
  currently share Delta II maintenance and facility costs. However, these recurring costs
  will be borne solely by NPP if, as expected, the other two missions proceed on schedule
  and NPP’s launch is further delayed.

  Moreover, in addition to risk reduction for NPOESS, NPP was intended to fill a gap
  between the expected operational life of NASA’s Earth Observing System and the launch
  of NPOESS, thereby assuring continuity in the collection of essential weather and climate
  data. However, this aspect of NPP’s mission could be compromised by further launch
  delays if NASA’s Terra or Aqua satellites fail. In addition, NPP management is
  concerned that the operational life of the instruments supplied by the IPO may be reduced
  to 3 years from the original design expectation of 7 years due to the challenges the IPO
  encountered in their development.

  Finally, because the Final Implementation Agreement between NASA, the IPO, and
  NOAA was executed on a “no exchange of funds” basis, each partner is responsible for
  all costs incurred for the mission segments assigned to it. Accordingly, NASA had to
  absorb the costs caused by the late delivery of instruments from the IPO. Although
  NASA identified late delivery of instruments by the IPO as a likely and significant risk to
  NPP’s cost and schedule as early as January 2005, it did not seek to modify the
  Agreement to hold the IPO accountable for the delay costs, believing that doing so would
  be inconsistent with the collaborative intent of the Agreement and would only serve to
  further delay the Project.

                                                                            Management Action

  We recommended that when assessing future collaborative efforts with external partners,
  the Associate Administrator for the Science Mission Directorate carefully consider the
  technical and oversight capabilities of partner agencies and the risks associated with

  6
      The other two missions are the Gravity Recovery and Interior Laboratory (GRAIL) and Aquarius. GRAIL
      is designed to fly two spacecraft in tandem orbits around the Moon in order to measure its gravity field.
      Aquarius intends to provide the first-ever global maps of salt concentrations in the ocean surface needed
      to understand heat transport and storage in the ocean.



REPORT NO. IG-11-018                                                                                              iii
                                                                                       OVERVIEW



     agreements executed on a “no exchange of funds” basis. If a decision is made to move
     forward with such an agreement, NASA should ensure that its budget includes reserve
     levels commensurate with the associated risk.

     In response to a draft of this report, the Associate Administrator for the Science Mission
     Directorate concurred with our recommendations and stated that the Directorate will seek
     to structure future partnerships to align responsibilities with technical expertise and
     acquisition capability while exploring reimbursable funding arrangements or a means to
     secure timely delivery of critical project components. In addition, the Associate
     Administrator stated that in partnerships executed on a “no exchange of funds” basis,
     NASA will track the programmatic risks and adjust reserves accordingly (see Appendix C
     for full Agency response).

     We consider the Associate Administrator’s comments to be responsive to our
     recommendations. The recommendations are resolved and closed.




iv                                                                         REPORT NO. IG-11-018
JUNE 2, 2011




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

  RESULTS
      NPP Has Been Adversely Impacted by Factors Outside NASA’s
        Control __________________________________________ 8

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 17
      Prior Coverage ______________________________________ 17

  APPENDIX B
      Final Implementation Agreement ________________________ 18

  APPENDIX C
      Management Comments ______________________________ 26

  APPENDIX D
      Report Distribution ___________________________________ 28




REPORT NO. IG-11-018
JUNE 2, 2011




                                                                                         INTRODUCTION


Background

  History of the National Polar-orbiting Operational Environmental Satellite System
  (NPOESS) and the NPOESS Preparatory Project (NPP). Polar-orbiting satellites
  provide data and imagery for weather forecasters, climatologists, academics, Government
  agencies, and the military to map and monitor changes in weather, climate, the oceans,
  and the environment. Since the 1960s, the United States has operated two polar-orbiting
  meteorological satellite systems: the Polar-orbiting Operational Environmental Satellite
  (POES) series, managed by the Department of Commerce’s National Oceanic and
  Atmospheric Administration (NOAA), and the Defense Meteorological Satellite Program
  (DMSP), managed by the Department of Defense (DOD). Currently, one POES and two
  DMSP satellites are positioned to observe Earth in early morning, midmorning, and early
  afternoon polar orbits. 7

  With the expectation that combining the NOAA and DOD programs would reduce
  duplication and result in significant cost savings, in May 1994 President Clinton directed
  NOAA and DOD to merge the two satellite programs into a single program capable of
  satisfying both civilian and military requirements. 8 This combined system, known as
  NPOESS, was considered critical to the United States’ ability to maintain the data
  continuity required for weather forecasting and global climate monitoring.

  To manage the NPOESS Program, a tri-agency Integrated Program Office (IPO) was
  formed consisting of NOAA, DOD, and NASA personnel. Each agency was assigned
  lead responsibility for specific aspects of the NPOESS Program: NOAA for management
  of the merged system and satellite operations; DOD, through the Air Force, for providing
  the majority of the acquisition personnel and acquisition infrastructure; and NASA for
  facilitating development and incorporation of new technologies into the merged system.

  NPP was conceived in 1998 as a risk reduction mission for the larger NPOESS Program.
  The NPP satellite was designed to carry several NPOESS instruments and provide the
  NPOESS Program with an opportunity to demonstrate and validate those instruments;
  processing algorithms; and command, control, communications, and ground processing
  capabilities prior to the first NPOESS satellite launch. In addition, launch of the NPP
  satellite would assure continuity of key climate measurements between the end of the

  7
      The satellites are in a sun-synchronous polar orbit, which means that they pass over their targets on Earth
      at roughly the same local time. For example, if a morning satellite flies over Washington, D.C., at 6 a.m.
      Eastern time, then roughly 3 hours later it will fly over California at 6 a m. Pacific time, and later that day
      over Tokyo at 6 a.m. Japan Standard Time.
  8
      Presidential Decision Directive/NSTC-2, May 10, 1994.



REPORT NO. IG-11-018                                                                                                    1
                                                                                                    INTRODUCTION



    expected operational life of two existing NASA Earth-observing satellites, Terra and
    Aqua, and the first operational NPOESS satellite. 9

    In November 2003, NPP was baselined at a life-cycle cost of $560 million with an
    expected launch date of October 31, 2006. Since that time, the Project has been
    rebaselined two times, with a current life-cycle cost estimate of $864 million and a launch
    date of October 2011. 10

                                  Figure 1. NPP Satellite (Artist’s Illustration)




                         Source: NASA Release No. 08-98, “Mission Operations Readiness
                         Review for NPOESS Preparatory Project Completed,” December 16,
                         2008, available online at
                         http://www nasa.gov/topics/earth/features/NPOESS prep project html
                         (accessed May 5, 2011).


    During the period NPP was being planned and developed, the larger NPOESS Program
    experienced significant cost overruns and delays. By September 2005, the Program had
    exceeded its baseline by more than 15 percent, and again in January 2006 by more than
    25 percent. As required by law, the Program formally notified Congress of these
    increases. 11 As a result of these cost overruns, in June 2006 the Under Secretary of
    Defense for Acquisition, Technology and Logistics reduced the scale of NPOESS from
    six to four satellites.


    9
        NASA launched Terra on December 18, 1999, to begin collecting a global data set for future scientific
        investigations of Earth’s climate. NASA launched Aqua on May 4, 2002, to measure variables of the
        Earth’s water cycle. Terra and Aqua were designed with expected operational lives of 6 years. Both have
        exceeded these expectations and were still operating as of May 2011.
    10
         The life-cycle costs and other costs cited throughout the report are costs to NASA and do not include
         DOD or NOAA costs.
    11
         The Department of Defense Authorization Act for Fiscal Year 1983 (Public Law 97-252) requires
         congressional notification if a program’s costs increase by more than 15 percent.



2                                                                                          REPORT NO. IG-11-018
INTRODUCTION



  Over the next 3 years, NPOESS experienced additional cost and schedule slippage.
  Because of expected delays in the launch of NPOESS satellites, in March 2009, the
  NPOESS Program Executive Committee elevated NPP from a “risk reduction mission” to
  a “critical operational mission,” meaning that the data will be used by the scientific
  community for numerous weather prediction models.

  In June 2009, an Independent Review Team concluded that without significant
  managerial and funding adjustments, the NPOESS Program was unlikely to succeed and
  that, accordingly, there was an extreme risk to continuity of climate and weather data. 12
  On February 1, 2010, President Obama announced the dissolution and restructuring of
  NPOESS into the Joint Polar Satellite System (JPSS) and the Defense Weather Satellite
  System (DWSS).

  The following is a timeline of significant events in the development of NPP.

         •   May 1994 – Presidential Decision Directive creating NPOESS.

         •   May 1995 – NASA, NOAA, and DOD sign Memorandum of Agreement for
             NPOESS, which allows for a NASA research satellite to test NPOESS
             instruments.

         •   August 1998 – The NASA Office of Earth Science reviews options for a satellite
             to follow the Terra and Aqua missions and serve as a demonstration satellite for
             NPOESS. 13

         •   November 1999 – NASA and the IPO sign Initial Implementation Agreement for
             NPP.

         •   November 2003 – NPP is baselined at $560 million with a launch date of
             October 31, 2006.

         •   September 2004 – NASA, IPO, and NOAA execute the Final Implementation
             Agreement for NPP.

         •   January 2006 – NPOESS costs increase in excess of 25 percent leading to a
             reduction in the scale of the Program.

         •   June 2006 – As a result of changes and delays associated with NPOESS, NPP’s
             October 2006 launch date is postponed to a date “to be determined.”


  12
       NPOESS Independent Review Team, Final Report, June 1, 2009, available at
       http://democrats.science house.gov/Media/file/Commdocs/hearings/2009/Oversight/17jun/IRT NPOESS
        report.pdf (last accessed May 3, 2011).
  13
       On August 1, 2004, NASA merged the Offices of Earth Science and Space Science to form the Science
       Mission Directorate.



REPORT NO. IG-11-018                                                                                       3
                                                                                                INTRODUCTION



           •   February 2008 – NPP receives its first official rebaseline to a cost of
               $803 million and a June 2010 launch date.

           •   March 2009 – The Program Executive Committee for NPOESS decides that
               NPP, rather than serving as a demonstration as originally planned, will provide
               data for operational use.

           •   June 2009 – An Independent Review Team concludes that the NPOESS Program
               has an extraordinarily low probability of success and that continuity of data
               collection is at significant risk.

           •   February 2010 – The President announces the dissolution and restructuring of
               NPOESS into JPSS and DWSS.

           •   May 2010 – The launch date for NPP is set for October 25, 2011, with a life-cycle
               cost of $864 million.

           •   January 2011 – NASA’s Science Mission Directorate’s Program Management
               Council reviews NPP and reaffirms the $864 million life-cycle cost and the
               October 25, 2011, launch date established in May 2010.

    Management of NPP. Responsibility for the development of NPP’s instruments is
    divided between NASA and the IPO. As originally planned, NASA was responsible for
    providing one instrument – the Advanced Technology Microwave Sounder (ATMS) – the
    spacecraft, integrating the instruments provided by the IPO onto the spacecraft, and
    providing and managing launch services. The IPO was responsible for developing and
    delivering to NASA three instruments: the Crosstrack Infrared Sounder (CrIS), the
    Visible Infrared Imaging Radiometer Suite (VIIRS), and the Ozone Mapping and Profiler
    Suite (OMPS). 14 Under the 2006 launch schedule, the IPO was to deliver these
    instruments to NASA by February 2005.

    The Final Implementation Agreement between NASA and its NPP partners, executed in
    September 2004, stipulates that the individual agencies are responsible for the funding,
    management, and development of the portions of NPP assigned to them on a “no
    exchange of funds basis.” 15 Because of this stipulation, each partner is responsible for all
    costs incurred for the mission segments under its area of responsibility.

    The NPP spacecraft platform was built for NASA by Ball Aerospace Technology
    Corporation (Ball Aerospace) under a fixed-price contract for $189.1 million and the
    ATMS by Northrop Grumman Aerospace Systems (Northrop Grumman) pursuant to a
    $197 million cost-plus-award-fee contract. In 2008, NASA added a sensor and an

    14
         The OMPS consists of a Limb Sensor, a Nadir Sensor, and a Main Electrical Box.
    15
         The Final Implementation Agreement is reproduced in Appendix B.



4                                                                                         REPORT NO. IG-11-018
INTRODUCTION



  additional instrument – the Clouds and the Earth’s Radiant Energy System (CERES) – to
  its portion of NPP. The CERES instrument was built for NASA by Northrop Grumman
  unrelated to NPP and had been in storage since 1999. NASA prepared CERES for flight
  on the NPP satellite at a cost of approximately $19 million. 16 The NPP spacecraft,
  instruments, and partner responsibilities are illustrated in Figure 2.

                         Figure 2. NPP Mission Segments and Responsibilities




  EDRs - Environmental Data Records
  RDRs - Raw Data Records
  SDRs - Sensor Data Records
  SMD - Stored Mission Data
  Source: NASA NPP Overview, July 20, 2010.

  NPP was initially baselined in November 2003 with a life-cycle cost estimate of
  $560 million and a launch date of October 31, 2006. Due to late delivery of instruments
  from the IPO, NPP was rebaselined in February 2008 to a life-cycle cost estimate of
  $803 million and a launch date of June 2010 – a 43 percent cost increase and a 3-year
  schedule delay.

  16
       The full cost of CERES was $52.4 million – $27.6 million from NOAA, $19.4 million from NPP, and
       $5.4 million from the Science Mission Directorate.



REPORT NO. IG-11-018                                                                                     5
                                                                                    INTRODUCTION



    NPP was subject to a second rebaseline review in November 2010. On January 21, 2011,
    the Science Mission Directorate’s Program Management Council approved NPP’s second
    rebaseline, with a revised life-cycle cost estimate of $864 million ($61 million increase)
    and a launch date of October 25, 2011 (additional delay of 2 years). The current project
    schedule provides for completion of ground system integration and testing 14 days prior
    to the October 25 launch date. Assuming the Project meets the launch date, NPP will
    have incurred a 5-year launch delay and a 54 percent overall life-cycle cost increase since
    the initial Program Commitment Agreement in 2003. Table 1 summarizes the intended
    and actual delivery dates for the instruments and spacecraft, as well as the rationale for
    the delays.


                 Table 1. Instrument Delivery Dates and Rationale for Late Deliveries

    Instrument      Provider     Original         Actual        Delay            Rationale
                               Delivery Date   Delivery Date   (months)
                                                                          Due to the late delivery
                                                                          of the other instru-
      ATMS           NASA      January 2004    October 2005      21       ments, NASA delayed
                                                                          development to phase
                                                                          delivery accordingly.
                                                                          Multiple failures during
       CrIS           IPO       April 2004      June 2010         74      vibration testing. Cir-
                                                                          cuit design failures took
                                                                          1.5 years to resolve.

      VIIRS           IPO        September      December         63       Technical failures and
                                   2004           2009                    design issues.
                                                                          Modifications to the
                                                                          spacecraft from addi-
    Spacecraft       NASA        November       June 2005         7       tion of CERES and
                                   2004
                                                                          significant delays with
                                                                          the VIIRS and CrIS.
                                                                          Suffered from funding
      OMPS            IPO      February 2005    November         45       issues because of
                                                  2008                    VIIRS and CrIS.
                                                                          Added by NASA to
      CERES          NASA      October 2008    October 2008       0       ensure continuity of
                                                                          data collected by Aqua.
                                                                          System integration and
                                                                          testing identified
      Ground                                                              performance issues,
      System          IPO       March 2006       July 2009        40      data loss, and
                                                                          inconsistencies in the
                                                                          technical baseline.




6                                                                           REPORT NO. IG-11-018
INTRODUCTION



  NPP is the last mission scheduled to launch aboard a Delta II launch vehicle. If the
  launch is delayed, the Project could find itself responsible for full costs of maintenance of
  the Delta II launch facilities and operations, which would cause additional increases to the
  overall mission cost. If NPP misses the October 2011 launch date and launches in
  February 2012 (the next available launch date due to launch schedule conflicts), NASA
  estimates the cost of the Project will increase by approximately $35 million for a total
  $899.3 million in life-cycle costs.


Objectives

  The overall objective of this audit was to determine how well NASA managed NPP to
  accomplish its technological objectives, meet its schedule milestones, and control costs.
  We also evaluated whether NPP management identified, reported, and mitigated risks.
  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-11-018                                                                              7
                                                                                                RESULTS




                                    NPP HAS BEEN ADVERSELY IMPACTED BY
                                      FACTORS OUTSIDE NASA’S CONTROL

              Although NASA met its schedule and technical requirements for the NPP spacecraft
              and instruments for which it was responsible, the IPO was unable to deliver its
              instruments to NASA in a timely manner and the Project therefore experienced
              significant schedule disruption. As a result, NASA incurred approximately
              $304 million in additional costs for NPP – money that otherwise would have been
              available to fund other NASA projects. Because the NPP Final Implementation
              Agreement was executed on a “no exchange of funds” basis, NASA rather than the
              IPO absorbed these costs. Moreover, delays and cost overruns suffered by the larger
              NPOESS Program further increased NASA’s costs for NPP, and the resultant
              restructuring of NPOESS delayed NPP’s launch; additional delays could result in a
              gap in data collection. In addition, because NPP is the last mission scheduled to use
              a Delta II launch vehicle, delay of the launch beyond October 2011 would result in
              NASA absorbing additional cost increases for launch services. Finally, the IPO
              instruments’ development challenges may affect the viability of NPP’s 5-year
              mission.


NPP’s Development and Launch Was Compromised by the IPO’s
 Late Delivery of Instruments

    We determined that NASA took appropriate steps to ensure NPP was on schedule and
    met technical requirements. Specifically, managers implemented an earned value
    management system to track the development of ATMS and CERES and, in accordance
    with NASA requirements, implemented risk management procedures to identify, analyze,
    track, and communicate associated risks. 17 By November 2005, NASA had completed
    ATMS, had integrated it onto the spacecraft, and was on schedule for the planned
    October 2006 launch. However, the IPO failed to deliver its three instruments to NASA
    for integration by November 2005 as planned. When the IPO still had not delivered the
    instruments by June 2006, it became apparent to NASA management that an October
    2006 launch would not be possible.

    To the extent possible, NASA management took steps to mitigate the impact of the IPO
    delivery delays. Specifically, rather than wait to perform risk reduction tests on the IPO
    instruments during the integration phase of the Project as originally planned, NASA
    performed these tests when the individual instruments were delivered to it. The IPO
    delivered the OMPS Nadir Sensor in November 2008, the VIIRS instrument in January

    17
         NASA Procedural Requirements (NPR) 8000.4A, “Agency Risk Management Procedural Requirements,”
         December 16, 2008.



8                                                                                REPORT NO. IG-11-018
RESULTS



  2010, and the CrIS instrument in June 2010, and all instruments had been integrated onto
  the NPP spacecraft by September 2010.


Final Implementation Agreement Makes Each Partner Responsible
  for Individual Mission Segments

  The Final Implementation Agreement between NASA, the IPO, and NOAA was executed
  on a “no exchange of funds” basis and does not impose financial liability on a partner that
  encounters challenges that directly increase costs for another partner. Accordingly,
  regardless of fault, each partner is responsible for all costs incurred for the mission
  segments under its area of responsibility.

  Under the Agreement, NASA is responsible for the spacecraft, the ATMS instrument,
  instrument integration, launch support, and the science data segment. 18,19 The IPO is
  responsible for the CrIS, VIIRS, and OMPS instruments; the command, control, and
  communications segment; and the interface data processing segment. Technical problems
  and late delivery of the CrIS and VIIRS instruments and the OMPS Nadir Sensor directly
  affected NASA, increasing contract costs by $74.7 million and delaying NPP’s launch by
  5 years. Specifically, NASA incurred an additional $62.6 million in costs under the
  spacecraft contract with Ball Aerospace and approximately $12 million more under the
  ATMS contract with Northrop Grumman as a result of late deliveries of the IPO
  instruments and associated launch delays.

  “Article V – Amendment and Termination” of the Final Implementation Agreement
  provides that the agreement “may be amended at any time upon the mutual consent of the
  parties.” NASA managers responsible for NPP told us that as technical problems and
  launch delays increased, they discussed with NASA Headquarters officials whether they
  should seek to amend the Final Implementation Agreement to include language that
  would make the responsible partners liable for funding the cost of any delays; however,
  the Agreement was not revised.

  When we asked NASA officials why they did not seek to revise the Agreement, they
  stated that parties enter into this type of agreement in the spirit of collaboration,
  recognizing that such agreements can produce mutual benefits that would not be possible
  when working alone. NASA officials said that including language to make partners liable
  for the cost of delays would be contrary to the collaborative intent of the agreements and
  could result in a partner’s refusal to participate. This, in turn, would have a detrimental
  impact on NASA’s ability to accomplish missions that require effective partnerships to
  meet shared requirements. Ultimately, NASA Headquarters officials said they did not

  18
       The Implementation Agreement did not include the CERES instrument, which was added to the Project in
       2008 by NASA.
  19
       The science data segment is a research tool for assessing and verifying the quality of NPP data.



REPORT NO. IG-11-018                                                                                          9
                                                                                                         RESULTS



     pursue an amendment to the NPP Implementation Agreement because the IPO was
     already expending the majority of its funds on NPP and any effort to recoup the additional
     delay costs from the IPO would likely have led to additional delays.

     We reviewed memorandums of agreement for other NASA partnerships, including
     NASA’s Geostationary Operational Environmental Satellites (GOES and GOES-R) and
     Aquarius missions to determine whether they included cost-sharing provisions in the
     event of schedule delays caused by partner organizations. 20 We found that similar to the
     NPP Implementation Agreement these agreements do not include such provisions.


Delays and Cost Overruns for NPOESS Further Increased NASA’s
  Costs for NPP

     By January 2006, the baseline for NPOESS had been exceeded by at least 25 percent. As
     a result, five sensors originally planned for the NPOESS satellites were eliminated from
     the NPOESS Program and accordingly from NPP. However, NASA scientists believed
     that the ozone monitoring capabilities of one of the eliminated sensors – the OMPS Limb
     Sensor – were critical to NPP’s science mission. In addition, another of the eliminated
     sensors would have collected data relating to the Earth’s radiation balance. In order to
     maintain continuity of this data, NASA decided to include the CERES instrument on the
     NPP satellite rather than on a later NPOESS flight as had originally been planned.
     Accordingly, in June 2008 NASA rebaselined NPP to include the OMPS Limb Sensor
     and the CERES instrument with a launch readiness date of June 2010.

     By the fiscal year (FY) 2010 Planning, Programming, Budgeting, and Execution (PPBE)
     review, the NPP budget had increased by $304 million to $864 million, a 54 percent
     increase since the 2003 Program Commitment Agreement. 21 We determined that
     $213 million of this increase is attributable to the IPO’s failure to provide instruments in
     a timely manner. NASA’s decision to take responsibility for the OMPS Limb Sensor
     after it had been eliminated from the NPOESS Program and to add CERES cost NASA
     an additional $12 million and $19 million, respectively. The remaining approximately
     $60 million is attributable to improvements and other adjustments NASA made to the
     Project while it was awaiting delivery of the instruments from the IPO (see Table 2).




     20
          GOES and GOES-R collect weather data while Aquarius measures global sea surface salinity.
     21
          The PPBE process is a methodology for aligning resources in a comprehensive, disciplined, top-down
          approach.



10                                                                                      REPORT NO. IG-11-018
RESULTS




                                            Table 2. NPP Cost Increases
                                               (in millions, rounded)

                                                            Cost at MCR      Increase      NPP Total
                                                             November     from MCR to      Life-Cycle
                          NPP Cost Increases                   2003*       PPBE FY10          Cost
            Delay Costs                                     $       -      $    212.61     $    212.61
            NASA Costs and Opportunities:
              Ground System Updates                         $     29.70    $      14.62    $     44.32
              ATMS Improvements                             $    154.50    $      40.68    $    195.18
              OMPS Limb/Re-Manifest                         $       -      $      12.20    $     12.20
              CERES Addition                                $       -      $      19.38    $     19.38
              Project Support                               $     51.60    $      25.87    $     77.47
              Spacecraft Updates                            $    137.00    $       2.28    $    139.28
              Contingency Costs                             $     53.90    $    (35.91)    $     17.99
            Budget Restructures:
              Mission Science Team                          $       -      $       9.07    $      9.07
              General and Administrative; Maintenance and
               Operations; and Institutional Investments    $     14.30    $      (2.40)   $     11.90
            Full Cost                                       $     41.80    $       5.96    $     47.76
            Launch Services                                 $     77.30    $      (0.13)   $     77.17
                                                    Total   $    560.10    $    304.23     $    864.33

            *MCR - Mission Confirmation Review
            Source: NPP Deputy Project Manager, Resources




Launch Delay to 2012 Would Increase NPP’s Launch Services
  Costs

  NPP will be launched on a Delta II rocket. Currently, only two other missions, Aquarius,
  planned for launch in June 2011, and the Gravity Recovery and Interior Laboratory
  (GRAIL), planned for launch in September 2011, are scheduled to use a Delta II launch
  vehicle before that program is scheduled to be retired. The three missions equally share
  the post-production support costs and launch services contract costs of the Delta II
  program through the end of calendar year 2011. 22 In addition, NPP and Aquarius, which
  will both launch from Vandenberg Air Force Base in California, share launch pad
  maintenance costs until June 2011.


  22
       Post-production support costs ensure that subcontractors with the knowledge and expertise needed to
       manufacture or repair subcomponents are available if needed.



REPORT NO. IG-11-018                                                                                         11
                                                                                           RESULTS



     Both Aquarius and GRAIL are expected to launch on schedule. If NPP does not, the
     Project will face increased launch costs. Because of a crowded launch schedule in late
     2011, if NPP misses its October 2011 launch date, the next possible launch date is
     February 2012, which will cost NASA about $35 million in additional costs. These costs
     comprise approximately $4.8 million per month in Project costs (for example,
     maintaining personnel) for a total of $19.2 million. Moreover, NPP would also bear a
     portion of the maintenance costs for the Vandenberg Delta II launch pad (approximately
     $14 million per year), Delta II post-production support costs (approximately $7 million
     per year), and launch services contract costs (approximately $14 million per year). These
     additional costs attributed to the launch vehicle and services are estimated to be
     $15.8 million for a February 2012 launch. If the launch is further delayed, NASA’s costs
     would continue to increase.


Delay in NPP Launch Schedule Could Result in a Gap in Data
  Continuity

     As previously noted, the President announced the restructuring of NPOESS into JPSS and
     DOD’s DWSS on February 1, 2010. With regard to JPSS, NASA acts as the acquisition
     agent and is responsible for procuring and launching the satellites. NOAA is responsible
     for operating, collecting, and distributing the data collected by the satellites as well as
     funding and providing JPSS requirements. To mitigate the risk of a gap in climate data
     collection between the Terra and Aqua satellites and launch of the JPSS satellites, NPP
     needs to launch as soon as possible.

     However, as part of the restructuring of NPOESS, ground system contracts were to be
     transferred from the Air Force to JPSS. This caused further delays in delivery of the
     NPOESS/NPP ground system to NASA for integration. In addition, NASA and NOAA
     had to work with the Air Force and Northrop Grumman to obtain the instrument and
     ground system hardware and contracts. In November 2010, the ground system hardware
     and contracts were transferred to JPSS.

     NPP management stated that it typically takes 15 months to perform ground system
     integration and testing after integration of the last instrument, which for NPP occurred in
     June 2010. Although in theory this schedule would allow for an October 2011 launch,
     NPP management told us that they expect to encounter ground system integration issues
     that may take longer to resolve and that therefore could cause the launch to be delayed
     beyond October.




12                                                                           REPORT NO. IG-11-018
RESULTS



Concern that the Quality of the IPO Instruments May Affect the
  NPP Mission

  The IPO was responsible for development and delivery of the CrIS and VIIRS
  instruments and the OMPS Nadir Sensor. According to NPP management, these
  instruments were developed in “an undisciplined environment” and experienced technical
  and structural challenges that compromised their integrity. For example, continuing
  challenges with development of the VIIRS instrument caused the IPO to turn to the
  Goddard Space Flight Center for assistance, and the CrIS instrument experienced a
  broken frame during a vibration test and additional parts were damaged during repair.
  The potential life expectancy of both VIIRS and CrIS was 7 years, 2 years beyond NPP’s
  planned 5-year mission. However, because of the challenges in development and testing,
  NPP management has expressed concern that the design life of these instruments could be
  reduced to 3 years, which would threaten NPP’s 5-year mission plan.


Challenges Associated with Collaborations

  In 2010, the National Research Council’s Committee on Assessment of Impediments to
  Interagency Collaboration on Space and Earth Science Missions found that “candidate
  projects for multiagency collaboration in the development and implementation of Earth-
  observing or space science missions are often intrinsically complex and, therefore costly,
  and that a multiagency approach to developing these missions typically results in
  additional complexity and cost.” 23 The Committee also found that “advocates of
  collaboration have sometimes underestimated the difficulties and associated costs and
  risks of dividing responsibility and accountability between two or more partners; they
  also discount the possibility that collaboration will increase the risk in meeting
  performance objectives.”

  The Government Accountability Office (GAO) has reported on several projects on which
  NASA experienced challenges with partners not meeting commitments within planned
  funding levels and established schedules. 24 NPP was specifically cited as one such
  project. Other NASA projects the GAO discussed included Aquarius and the
  Magnetospheric Multiscale (MMS). Aquarius experienced delays in development that
  increased NASA’s costs by $35.5 million and extended the launch schedule 23 months.
  For MMS, a lack of funding for instrument production by an international partner cost
  NASA $6 million to transfer the work to a domestic partner.



  23
       “Assessment of Impediments to Interagency Collaboration on Space and Earth Science Missions,” 2010,
       National Research Council Assessment, available at
       http://www.nap.edu/catalog.php?record id=13042#toc (last accessed May 3, 2011).
  24
       “NASA: Assessments of Selected Large-Scale Projects” (GAO-11-239SP, March 2011).



REPORT NO. IG-11-018                                                                                         13
                                                                                           RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

When assessing future collaborative efforts with external partners, we recommend that the
Associate Administrator for the Science Mission Directorate take the following actions:

Recommendation 1. Carefully consider the technical and oversight capabilities of partner
agencies and the risks associated with agreements executed on a “no exchange of funds”
basis.

     Management’s Response. The Associate Administrator for the Science Mission
     Directorate concurred with the recommendation and stated that the Directorate will seek
     to structure future partnerships in a way that aligns responsibilities with both technical
     expertise and acquisition capability. The Associate Administrator also stated that the
     Directorate will “studiously avoid other similarly misaligned partnerships” with
     interagency program offices and explore the use of reimbursable funding arrangements
     for non-space agency partners that would allow the Directorate to secure timely delivery
     of critical project components.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and closed.

Recommendation 2. If a decision is made to move forward with such an agreement, ensure
that the budget includes reserve levels commensurate with the associated risk.

     Management’s Response. The Associate Administrator for the Science Mission
     Directorate concurred with the recommendation. However, in his response he
     commented that a “no exchange of funds” agreement may be the only practical course for
     agencies that have trouble funding their own deliverables and therefore are likely to have
     even more trouble funding costs incurred by NASA due to delays on the partners’ end.
     The Associate Administrator said NASA would track these programmatic risks and adjust
     its reserve levels accordingly.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore the recommendation is resolved and closed.




14                                                                          REPORT NO. IG-11-018
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this audit from June 2010 through May 2011 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We reviewed planning, financial, and scheduling documents; NPP contracts; and risk
  management plans, as well as criteria for project management, and earned value
  management. We conducted interviews with project officials to determine whether
  NASA effectively managed NPP in support of NPOESS/JPSS to accomplish its
  technological objectives while meeting established milestones and controlling costs. We
  also reviewed internal controls as they related to the overall audit objective. The budget
  documents available for review were the November 2003 Program Commitment
  Agreement; the “Program Operating Plan 06-1 New Obligation Authority/Cost
  Summary” for FY 2006; and the “Planning, Programming, Budgeting, and
  Execution 10-1 New Obligation Authority/Cost Summary” for FY 2010, which we also
  reviewed to determine whether NPP was controlling costs. In addition, we reviewed the
  NASA Science Mission Directorate’s Program Management Council Project Decision
  Agreement, January 21, 2011.

  We reviewed the NPP Project Plan (GSFC 429-02-01-07, July 12, 2005) and compared it
  to the Monthly Status Reports through September 2010. We found that NPP
  management, to the extent possible and within the confines of the September 2004 Final
  Implementation Agreement between NASA, the IPO, and NOAA, effectively monitored
  and managed the Project. In addition, we reviewed NASA project management criteria,
  NPR 7120.5D, “Space Flight Program and Project Management Requirement,” March 6,
  2007, to determine whether the Project was within NASA guidelines.

  We reviewed the NPP Risk Management Plan (GSFC 429-99-01-04, January 21, 2000);
  interviewed the NPP Project Manager, NPP Deputy Project Manager, Mission Systems
  Engineer/Risk Coordinator, NPP Chief Engineer, and Chief Safety and Mission
  Assurance Officer; and reviewed the NPP risk database to determine whether NPP
  management was effectively identifying, reporting, monitoring, and mitigating risks in
  accordance with NPR 8000.4A, “Agency Risk Management Procedural Requirements,”
  December 16, 2008, which is required to be implemented by every NASA project.




REPORT NO. IG-11-018                                                                           15
                                                                                      APPENDIX A



     We reviewed instrument, spacecraft, and launch services contracts and interviewed NPP
     Contracting Officers, Senior Program Officials of the Launch Services Program/Program
     Business Office, and the Chief of Procurement for Launch Services.

     In addition, we interviewed the JPSS Deputy Program Manager and the JPSS Chief
     Engineer to determine any impacts to JPSS due to the delayed launch of NPP and
     confirmed that a delay in NPP’s launch would increase the risk of a data gap if the current
     operational satellites became nonoperational.

     Use of Computer-Processed Data. We used an NPP Project Risk Information
     Management eXchange report to determine that NPP had a risk database and that it was
     implemented in accordance with NPR 8000.4A. However, we did not validate the
     accuracy of the data in the NPP Project Risk Information Management eXchange report.

     We also used a management-prepared NPP Budget New Obligation Authority Summary
     of life-cycle costs and cost increases. We verified the costs by comparing them with
     other source documents (see list below). From the comparison, we determined that the
     management-prepared NPP Budget New Obligation Authority Summary data was
     credible.

        •   NPP New Obligation Authority Budget Plan from the 2003 Mission Confirmation
            Review Presentation

        •   Program Operating Plan 03-1 Working Summary

        •   NPP New Obligation Authority Summary Program Operating Plan 04-1 Final

        •   NPP FY 2009 Budget Request

        •   NPP Mission Science Team Reconciliation of Guideline and Program Operating
            Plan 06-1 New Obligation Authority Submit

        •   NPP Spacecraft Contract PPBE Program Operating Plan 10-1 Cost Requirement

        •   ATMS Instrument Contract History

        •   Program Operating Plan 06-1 New Obligation Authority/Cost Summary

        •   PPBE 10-1 New Obligation Authority/Cost Summary

        •   NPP FY 2008 Congressional Budget

        •   NPP FY 2011 Office of Management and Budget Submission Narrative Update,
            January 2011

        •   NPP Monthly Launch Slip Estimate


16                                                                          REPORT NO. IG-11-018
APPENDIX A



Review of Internal Controls

  We reviewed NPP policies, procedures, and internal controls to determine whether NPP
  had implemented appropriate internal controls related to NPP management, risks, lessons
  learned, and administration of contracts for compliance with NASA regulations. We
  found that NPP management had implemented an effective process to identify, document,
  evaluate, mitigate, and administer contract responsibilities in accordance with NASA and
  NPP oversight criteria. Specific internal controls reviewed included:
      •   NPP Project Plan, GSFC 429-02-01-07, July 12, 2005
      •   NPP Risk Management Plan, GSFC 429-99-01-04, January 21, 2000
      •   NPR 8000.4A, “Agency Risk Management Procedural Requirements,”
          December 16, 2008
      •   NPR 7120.6, “Lessons Learned Process (Revalidated w/change 1, 01/22/10)”
      •   NPR 7120.5D, “NASA Space Flight Program and Project Management
          Requirement,” March 6, 2007
      •   ANSI/EIA-748-B-2007, “Earned Value Management Systems,” September 10,
          2007


Prior Coverage

  During the last 5 years, NASA has not issued a report of particular relevance to the
  subject of this report. The GAO has issued five reports, listed below, that describe
  significant impacts to NPP due to escalating costs, schedule delays, and ineffective
  management of the NPOESS Program and its restructure to JPSS as the cause for NPP
  launch delays and cost growth. Unrestricted reports can be accessed over the Internet at
  http://www.gao.gov.

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-11-239SP, March 2011)

  “Polar-Orbiting Environmental Satellites: Agencies Must Act Quickly to Address Risks
  That Jeopardize the Continuity of Weather and Climate Data” (GAO-10-558, May 2010)

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP,
  February 2010)

  “Polar-Orbiting Environmental Satellites: With Costs Increasing and Data Continuity at
  Risk, Improvements Needed in Tri-agency Decision Making” (GAO-09-564, June 2009)

  “Environmental Satellites: Polar-orbiting Satellite Acquisition Faces Delays; Decisions
  Needed on Whether and How to Ensure Climate Data Continuity” (GAO-08-518,
  May 2008)


REPORT NO. IG-11-018                                                                         17
                       APPENDIX B




     FINAL IMPLEMENTATION
                AGREEMENT




18            REPORT NO. IG-11-018
APPENDIX B




REPORT NO. IG-11-018   19
              APPENDIX B




20   REPORT NO. IG-11-018
APPENDIX B




REPORT NO. IG-11-018   21
              APPENDIX B




22   REPORT NO. IG-11-018
APPENDIX B




REPORT NO. IG-11-018   23
              APPENDIX B




24   REPORT NO. IG-11-018
APPENDIX B




REPORT NO. IG-11-018   25
                       APPENDIX C




     MANAGEMENT COMMENTS




26            REPORT NO. IG-11-018
APPENDIX C




REPORT NO. IG-11-018   27
                                                                                 APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Associate Administrator, International and Interagency Relations
     Associate Administrator, Science Mission Directorate
     Director, Goddard Space Flight Center
     Project Manager, NPOESS Preparatory Project

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




28                                                                      REPORT NO. IG-11-018
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Diane Choma, Project Manager
   Gina Davenport-Brazeau, Auditor, Team Lead
   Theresa Becker, Procurement Analyst
   Bill Falter, Auditor




REPORT NO. IG-11-018                                                         29
                                                                                          JUNE 2, 2011
                                                                       REPORT No. IG-11-018




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
